HHS/OIG - Audit, "Review of Disproportionate Share Hospital Costs Claimed by the State of Missouri for Fiscal Year Ended June 30, 1999," (A-07-01-02093)
Department
of Health and Human Services
"Review of Disproportionate Share Hospital Costs Claimed by the State
of Missouri for Fiscal Year Ended June 30, 1999," (A-07-01-02093)
August 16, 2002
Complete Text of Report is available in PDF format
(922 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that the State of Missouri overstated its
disproportionate share hospital (DSH) claims by $36.2 million (federal share)
for State Fiscal Year 1999. Contrary to the Omnibus Budget Reconciliation Act
of 1993 (OBRA), the State included nonhospital (community mental health center)
costs in the DSH calculations. We recommended a financial adjustment for the
$36.2 million. We also recommended that the State identify and refund similar
excessive claims from subsequent years, and implement procedures and controls
to prevent similar types of DSH claims in future periods. The State did not
concur, contending that the nonhospital costs were allowable.